                    AUDIT OF AN EARLY DEFAULTED LOAN TO 


                            GLT MANAGEMENT COMPANY 


                                 AUDIT REPORT NO. 0-09 


                                       MARCH 22, 2000 





This finding in this report is the conclusion of the OIG's Auditing Division based on testing of the
auditee's operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution.
This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
                        u.s. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                 Washington, DC 20416




                                                                          AUDIT REPORT
                                                                     ISSUE DATE:
                                                                     MARCH 22 .2000
                                                                     REPORT NUMBER: 0-09

To:            Robert Blaney, District Director



From:
                 -~ ~~
                         ia (:,
               Arizona District Office
                ~
           t.,...Robe'ft:Sl:a rooks, Assistant Inspector General
                For Auditing

Subject:       Audit of an Early Defaulted Loan to GLT Management Company

        Attached is a copy of the subject audit report. The report contains one finding
and two recommendations addressed to your office. Your comments and the comments
of the lender have been synopsized and included in the report. Your comments indicate
that you agree with the audit results and that all options and potential remedies available
to SBA in recovering the loan guarantee from the lender will be examined.

        Since this report may contain proprietary information subject to the provisions of
18 USC 1905 and might comprise possible investigative work, the contents must not be
released to the public or another agency without permission of the Office of Inspector
General.

        The recommendations are subject to review and implementation of corrective
action by your office in accordance with existing Agency procedures for follow-up.
Please provide your management response to the recommendations within 30 days from
the date of this report using the attached SBA Forms 1824, Recommendation and
Action Sheet.

        Any questions or discussion of the issues contained in this report should be
directed to Garry Duncan at 202-205-7732.


Attachments




                                                                                              \
                                                     AUDIT OF 

                                            EARL Y DEFAULTED LOAN TO 

                                            GLT MANAGEMENT COMPANY 





                                                     TABLE OF CONTENTS 





Background ..................... ~ ................................................................................................... 1

Audit Scope and Objective ................................................................................................. 1

Results of Audit .................................................................................................................. 1

Finding and Recommendations

          The Borrower was Ineligible for a SBA Guaranteed Loan ..................................... 1 



APPENDICIES

          A-Management Response 

          B-Lender Response 

          C-Audit Report Distribution 

                                                  BACKGROUND

                    The Small Business Administration (SBA) is authorized under section 7(a) of
             the Small Business Act to provide financial assistance to small businesses in the form of
             government guaranteed loans. SBA guaranteed loans are made by participating lenders
             under an agreement (SBA Form 750) to originate, service, and liquidate loans in
             accordance with Administration rules and regulations.

                      On [ E)c. L-i -:J Commercial Capital Corporation (lender) approved loan
             number t c;<.. '1 ] to GLI Management Company (borrower). The loan was made to
             refinance the purchase of c             c'" . L\:     _                             _ -j
             Arizona. The refinanced loans and notes were held by a second lender (Capital Lending
             Corporation), the seller C ~i<. '-t       J and a third party. The $1 million loan was
             originated under regular 7(a) procedures (with a 75 per cent SBA guarantee) and
             disbursed in [ E')l. 4       --:J The borrower defaulted seven months after the loan was
             disbursed and then filed for bankruptcy. SBA paid the lender $834,081, including
             interest, to purchase the guarantee.

                                      AUDIT SCOPE AND OBJECTIVE

                    This report provides the conclusions of an audit of a SBA guaranteed loan. The
             loan was judgmentally selected for review as part of the Office of Inspector General's
             ongoing program to audit SBA guaranteed loans charged off or transferred to liquidation
             within 36 months of origination (early default).

                     The audit objective was to determine if the early loan default was caused by
             lender or borrower noncompliance with SBA requirements. The SBA and lender loan
             files were reviewed and district office and lender personnel were interviewed. The
             borrower and its bookkeeper were contacted and their records analyzed. The audit was
             conducted betwe.en April and September 1999 in accordance with Government Auditing
             Standards.

                                               RESULTS OF AUDIT

             The Borrower was Ineligible for a SBA Guaranteed Loan

                     The borrower defaulted because sufficient cash flow was not available to service
             business debts. The lender and SBA did not detect the inability to repay the loan
             because the borrower submitted financial statements that misrepresented its financial
             condition. The lender and SBA compounded the problem by violating loan origination
             requirements that required the lender to obtain the seller's historical financial data for
             the prior three years: As a result, SBA lost $834,081 after the borrower defaulted .




.•.. .   "
----   ---------------------------------------,


   Borrower Misrepresentation

           Our audit showed the borrower submitted interim financial statements that
   demonstrated it had the ability to repay the loan. Using the interim data, the cash flow
   projections showed the borrower could generate gross revenues of $1.4 million and cash
   flow totaling at least $343,100 per year. We found, however, that the interim
   statements overstated the borrower's actual revenues and cash flow.

   Lender Loan Processing

            We found that the lender based cash flow projections on the borrower's partial
   year tax return and interim, unaudited, financial statements for the first eight months of
   1996. Using the interim data, the cash flow projections showed the borrower had the
   ability to repay the SBA loan, i.e., available cash flow was calculated at $343, I 00 per
   year.

   Criteria for Verifying Historical Financial Data

           Standard Operating Procedure (SOP) 50 10 4, Subpart B, Chapter I, required the
   lender to obtain the seller's historical financial statements for the last three years. If the
   lender had followed SBA requirements and obtained'the seller's prior years financial
   data it would have discovered that the borrower's income projections were grossly
   overstated. The statements which were available from the original lender, Capital
   Lending Corporation, showed that the business' historical annual cash flow of $11 0,900
   would be insufficient to service debts of over $183,900 per year.

       SBA Loan Approval

           When a loan is originated under regular 7(a) procedures, the SBA district office
   should ensure that the lender has accurately calculated the business historical cash flow
   and the borrower's ability to repay the loan. We found the district office did not require
   the lender to obtain the seller's historical financial data for the last three years to support
   the borrower's ability to repay the loan. Had the district office required compliance
   with this rule, it would have determined the borrower lacked the cash flow needed to
   service the loan.

            In addition, the district counsel expressed concerns about the lender and the loan
   application. The attorney stated that the loan application contained possible
   misrepresentations and misinformation and that the loan underwriting appeared grossly
   negligent. In addition, the attorney stated that if SBA accepted the information it would
   have no remedies in bankruptcy. According to the attorney, inappropriate lender actions
   included: 	                                      ,,," .

            • 	 Mislabeling iC ~)C, 4    ] Arizona property as fee simple although the
                underlying documents revealed the ground was leased and only the building
                was purchased.


                                                 2
        • 	 Treating the real estate collateral as property eligible for 25-year financing
            although less than 12 years remained on the ground lease and no option
            existed for purchasing or extending the lease.

The district office overrode the attorney concerns and approved the loan guarantee.

Loss to SBA

         We concluded that the lender's noncompliance with SBA loan origination
 requirements allowed the borrower to obtain a loan that could not be repaid. As a
 result, SBA lost $834,081 ($748,078 to purchase the guarantee and $86,003 for accrued
 interest).

Impact on the SBA Guarantee

        Section 120.524, Title 13 of the Code of Federal Regulations states that SBA is
released from liability on a loan guarantee in whole or in part if:

       •. The lender has failed to comply materially with any of the provisions in the
       regulations or the loan guarantee agreement.
       • In addition, SBA is released from the guarantee liability if the lender's
       improper action or inaction placed SBA at risk.

If SBA determines, after purchasing the guaranteed portion of a loan, that any of the
above events occurred in connection with the loan, SBA is entitled to recover any
monies paid.

Recommendations

We recommend that the Arizona District Director take the following actions:

    1A. Coordinate with the Office of General Counsel to determine if SBA can
    recover from the lender any or all of the $834,081 paid to purchase the loan
    guarantee for loan number C. i;.'1( . L{ J
    lB. Remind the lender of its obligations to comply with SBA regulations, policies,
    and procedures for originating loans, particularly in the area of obtaining the seller's
    historical financial data for the prior three years.

Management Comments

        With respect to Recommendation IA of the Report, the Arizona District Office,
in conjunction with the Office of General Counsel, will examine all options and
potential remedies available to SBA to recover from the lender the $834,081 paid to
purchase the loan guarantee. It should be further noted that the lender recently



                                             3
forwarded a check in the amount of $48,650.69 to the SBA for reimbursement of excess
interest on this loan.

        With respect to Recommendation 1B, the Arizona District Office has already
notified the lender's senior management of the deficiencies on this loan in a meeting in
this office on June 24, 1999.' On September 10 and II, 1998, a comprehensive training
for the lender was held in which SBA reminded them of their obligations to comply
with SBA's regulations, policies, and procedures for originating, closing, disbursing, and
servicing our loans. This was reiterated in a conference call with the lender's staff on
September 8, 1999. A meeting is scheduled again on February 25,2000 with the lender
to further discuss their performance.

       See Appendix A for management's response.

Evaluation of Management's Comments

    Management proposed and actual actions are responsive to the recommendations.

Lender Comments

     The lender disagreed with the audit finding and stated that they did not violate SBA
origination procedures. The lender contended that the loan was for debt repayment and
working capital and not for the purchase of a going concern. According to the lender,
SOP 50 10 (4), paragraph 3(e) provides that three years of historical financial statements
are generally but not always required. The lender further stated the historical financial
statements would not have been available to the lender because it did not have a
relationship with the bank making the original loan.

    It was pointed out that SBA reviewed the financial statements and other
documentation submitted by the lender and borrower before authorizing the loan
guarantee and, therefore, SBA should bear the responsibility and consequences for
relying upon the erroneous financial statements. If SBA required three years of
historical financial statements, it should have requested them from the borrower or
lender prior to authorizing the loan guarantee. The lender concluded its actions resulted
in no loss to SBA and would not justifY denial of liability.

    See Appendix B for the lender's response.

Evaluation of lender's comments

     The section cited by the lender (SOP 50 104, Subpart A, Chapter 6, paragraph 4e),
contradicts the lender's claim that financial statements are not always required. The
citation states, "Balance sheets, reconciliation of net worth, and profit and loss
statements are generally required for the past three years ....". SOP 50 104, Subpart B,
Chapter I, paragraph 3c, adds that,



                                           4
        "If a change ofownership involves the acquisition ofa going concern, historic.al
       financial statements for no less than the last three complete fiscal years plus
       interim statements which are not older than 180 days from the receipt of
       application will be required .... ".

      The borrower had acquired a going concern, so the lender was responsible for
obtaining historical financial statements for the last three fiscal years. Although the
district office did not request the historical financial statements from the lender, it was
still obligated to comply with this requirement. Had the lender complied with the SOP,
the lender would have discovered the historical cash flow was insufficient to repay the
SBA loan.

    Contrary to the lender's claim, we obtained the business' historical financial
statements for the past three fiscal years from the original lender, Capital Lending
Corporation, by simply asking the borrower to sign a release statement and forwarding it
to the original lender.

    The lender's loan file showed the SBA loan proceeds would be used to repay debts
related to the purchase of the two ongoing restaurants. The debt repayments included
the seller of the business - as well as, a third party who provided funds for the purchase
and renovation of the business properties and the original lender for the business
purchase. The SBA loan, therefore, constituted a continuation of the change in
ownership process and fell under the auspices of SOP 50 104 requirements for
acquiring a going concern.




                                            5




                                                                                              I
                                                                               £ .. ..-..- ................   ra. 


                              United States Government 

                     SMALL BUSINESS ADMINISTRATION 

                               Arizona District Office
                2828 North Central Avenue, Suite 800, Phoenix, AZ 85004-1093
                        Telephone: 602.745.7200 Fax: 602.745.7210




DATE: 	        March 8, 2000

REPLY TO 	
ATTN. OF: 	
               Bruce L. Hodgman
               Acting District Director
                                        ~
                                         1                't7
                                                                  I
               Arizona District Office

SUBJECT: 	     AUDIT OF AN EARLY DEFAULTED LOAN TO
               GLT MANAGEMENT COMPANY

TO: 	          Robert Seabrook
               Assistant Inspector General for Auditing




This office is in receipt of the draft audit of an early
defaulted loan to GLT Management Company and wish to provide a
response.

The. Inspector General should be aware that the Arizona District
Director, the Assistant District Director for Finance who
approved this loan, and the Loan Officer who recommended
approval, are no longer with the Arizona District Office.   The
Loan Officer at Commercial Credit Corporation (CCC) who
submitted the loan application to SBA is no longer with the
lender.   New senior management at the Arizona District Office
has been in place since 1998. Since Robert J. Blaney's arrival
as District Director in 1998, he has taken action to improve the
quality of loan underwriting in this office by instituting a
more careful oversight process and by providing comprehensive
training to our lenders.

With respect to Recommendation 1A of the Report,                           the Arizona
District Office, in conjunction with the Office                           of General
Counsel, will examine all options and potential                           remedies
available to SBA to recover from the lender the                           $834,081 paid to
purchase the loan guarantee.

It should be noted that the lender recently forwarded a check in
the amount of $48,650.69 to the SBA for reimbursement of excess
interest.
                                                       appeOOlXA

                                                                   2


With respect to Recommendation 1B, the Arizona District Office
has already notified CCC's senior management of the deficiencies
on this loan in a meeting in this office on June 24, 1999
(summary attached as Exhibit 1). On September 10 and 11, 1998,
a comprehensive training for CCC was held in which SBA reminded
them of their obligations to comply with SBA's regulations,
policies, and procedures for originating, closing, disbursing,
and servicing our loans. (Agenda attached as Exhibit 2.)      We
reiterated this in a conference call with CCC staff on September
                                                        th
8, 1999. We also met with (€l\.(g     :) on February 25    to
further discuss these matters.   (Summary attached as Exhibit 3)




                                  Bruce L. Hodgman
                                  Acting District Director




*    Please note that Robert J. Blaney, Arizona District
     Director, has recused himself from all matters involving
     Commercial Capital Corporation.  Bruce L. Hodgman is Acting
     District Director with respect to such matters.
     SUMMARY OF MEETING WITH COMMERCIAL CAPITAL CORPORATION 

                 ON JUNE 24, 1999 [by N. River~l 





On June 24, 1999, Bruce Hodgman, ADD/F&I; Marilynn Eiklor, Chief
PMD; and Nina Rivera, District Counsel, met with C ~X~ 1
C                  c/<. b : J .
of Commercial Capital Corporation ("CCC").  Items for discussion
included the importance of selecting prudent business
development officers, and of insuring prudent credit
underwriting, loan closing and disbursement, liquidation, and
litigation. We discussed the loans in our liquidation portfolio

\~




L                                                           _J
                                                                I



                       (i!\~   .




                                   EXHIBIT "L~~ 

                                                                                             ,           AppenolX   A



                                          U. S. SMALL BUSINESS ADMINISTRATION
                                                     Phoenix District Office
                                              2828 North Central Avenue, Sui. 800, Phoenix, Arizona 85004-1093
                                                        Phone: (602) 640-2316 FA:k (602) 64G-2360




                      Date:      Augusl 14, 1998

    Reply To The Attention       Bruce L. Hodgman 

                        Of       Assistanl District DirectorlED-F 

                   SUbjcc:t:     AGENDA
                                 Commen:ial Capilal Corpo!3lion Visit·
                                 September 10-11, 1998
                  Through:       Robert 1. Blaney
                                 DistriCl DireCIor-Phoenix DistriCl Office

                                                    '\
                                                      J Commercial Capilal COIporation
                       To:       Phoenix DistriCl Office:
                                 Finance Division
                                 Legal Division
                                 Uquidation Division


                                                     AGENDA
   ursdav, September 10. 1998

                  9:30am          Commercial Capilal Corpo!3lion Staffanives in Phoenb: from New York

11:00 am 	       12:00 am         Legal Review and Environmenlal Issues 

                                  Legal Division: DistriCl Office Conference Room 


12:00 am          1:00 pm         Lunch

1:00am            3:30pm          Loan Packaging, Credit Memorandwns and SBA Policy 

                                  Flllonce Division:, DistriCl Office Conference Room



Fridav. Seotember II. 1998

8:00am          12:00 Doon        Liquidation and Servicing Training 

                                  Liquidation Di"ision: District Office Conference Room 


12:00am           1:00pm          Lunch

1:00pm           3:00pm           Uquidation and Servicing Training (Continued) 

                                  Liquidation Di"ision: District Office Conference Roon!- -_ 


3:00.pm 	        3:30pm           Exit Meeting with District Director

                 5:00pm          Commercial Capilal Corpo!3lion departs for New York

  .e: Each Division Supervisor will prepare a Division TI3ining Agenda for distribution 10 all attendees and staff members.


                                       EXHIBIT ; '-L..t~                         

     SBM
                                 United States Government                         Appendix A
                        SMALL BUSINESS ADMINISTRATION
                                  Arizon" District Office
                   2828 North Central Aven... Suite 800. Phoenix, R. 85004-1093
     ~      '.'            Telephone: 602.745.7200 Fax: 602.745.7210




    DATE:         February 25, 2000

 REPLY TO         Nina J. Rivera
 ATTN. OF:        District Counsel
                  Arizona District Office

 SUBJECT:         StlllllllAry   of Meeting- with
                  Commercia~ Capita~         Corporation on 2/25/00

 TO:              Robert Seabrook
                  Assistant Inspector General for Auditing




  A meeting was held February 25, 2000, with C      x€ · '"           J
c             E~· ("                 _ : J of Commercial
  Capital Corporation (CCC). SBA attendees were: Robert Blaney,
  District Director; Nina Rivera, District Counsel; and C .::;<,.(" J
(               ~x. ~     Business Assistance Division.

At .this meeting Mr. Blaney announced .to those present his
recusal from all matters involving CCC and stated that Mr.
Hodgman would be handling all CCC matters in the future as
Acting District Director.

After Mr. Bl~ney's recusal was announced, Nina Rivera discussed 

with the CCC representatives the various areas of concern this 

District has with eee's Arizona portfolio. Specific areas of 

discussion included credit underwriting, loan closing and 

disbursement, purchase requests, liquidation, litigation, 

collections. eee was advised of ,­




L
                                                                                         J

                                                             Appendix A




At the meeting, [ G)( -it> '1 discussed new developments and
organizational changes at CCC and provided the District Office
with an organizational chart and a packet of materials
delineating those changes.


NJR/sak


cc:   r:    <:; i< .,        ] Los Angeles IG Auditing Division
      t.
      t:
              c,,", .,     ~  HQ IG Auditing Division
           ~X,   b ...J   Regional Ethics Official, San Francisco




                                                                          -!
                                                                           r
                                                                           !
                                                                           i
                               =-.(..'~ ~ :.. ; '" "' .. -.                                           "'P.,"l.IUI ....   U




 Papper Hamilton LLP
 -~--==;;;:;A"""'IC La.


 Hamih." Square
 600 Fo.....",h 5cr.... N.W.
 Wuhiag,on, DC 2000S·2004
 202.220.1200
 Fax 202.220.1665
                                                                                            [                                J

                                                              February 1,2000



c     ~)(. It;      J
                    AttditManager
Office of Inspector General
U. S. Small Business Administration 

330 North Brand Boulevard. Suite 650 

Glendale, CA 91203 


Dear\:

              Please consider this to be the response of Commercial Capital Corporation 

("CCC") to the draft Audit Repon ("Audit Report'') regarding a loan for S1,000.000 guaranteed 

by the Small Business Administration ("SBA") and made to GLT Management Company 

("GLT',). SBA Loan Approval No. L         (')<. 'f  .J ("the Loan"). 




                 A seventy-five percent (75%) guaranty of the Loan was approved by SBA onl 'f 'J
[ I?/-. 4:1 by vinue of SBA' s Authorization and Loan Agreement ("Authorization") of that date,
 copy attached as Exhibit 1. The Authorization was amended several times with SBA approval
 and was executed by the GLT on November 13.1996. GLT signed a note for $1.000.000
 evidencing the Loan on November 13, 1996. The Authorization provided that SBA's guaranty
 was condition~d upon the representations made by GLT in the Loan Application it made to Ccc.
 The Loan Application provided that the use of proceeds of the Loan was for debt repayment
 associated with the prior purchase by GLT in 1995 of [      t'-x '+      '] and for working
 capital (Sec Exhibit 2). GLT furnished interim financial statements to CCC in conjunction with
 the Loan Application.

              The guaranty of the Loan was approved under normal (i.e., non-CLP or PLP)
procedures. As such, properly authorized SBA personnel in the SBA Phoenix District Office. not
CCC personnel. approved the Authorization after reviewing the Loan Application and supporting
documentation submitted by GLT and CCC, and assuring themselves that the Loan Application
complied with applicable SBA requirements. (See SBA SOP 50-10(4) Subpan A, 'IS).




                                                                      New Yorl:. New Vork
                                                                                                Churr Hin. Ikw Ie...,



                                                                                                                    P.1!I2
          Pepper Hamil,W,!.L!!!'
          [~i<1o             J
          Page 2
          February 1,2000


                           The Audit Report acknowledges that GLT submitted erroneous financial
         statements to eee in order to overstate its cash flow, and thereby justify its ability to repay the
         Loan. The Audit Report acknowledges that the SBA Phoenix District Office authorized the
         guaranty of the Loan, but alleges that eee is somehow culpable for the ultimate loss of
         5834,081 by SBA, because it failed to obtain historical financial statements from GLT for the
         three years prior to the Loan Application and failed to comply with other unspecified SBA "loan
         origination" requirements. The Audit Report also alleges that SBA is entitled to release of
         liability on its guaranty of the Loan because eee failed to comply materially with unspecified
         provisions of the SBA regulations or loan guarantee agreement and because its improper action
         or inaction placed SBA at risk.

                                   eee Did Not Violate SBA Origination Procedures
                        eee did not Violate SBA loan origination procedures in underwriting the Loan.
         As the Loan Application and Authorization clearly indicate, the use of the proceeds for the Loan,
         agreed upon by SBA, was debt repayment and working capital; not the purchase of a going
         concern. In such circumstances SBA SOP SO-I0(4) 'I3(e) provides that three years of historical
         financial statements are generally but not always reqUired. Thercforc, failure by eee to obtain
         three years of historical financial statements from GLT is neither a violation of the SOP nor a
         failure to comply with SBA underwriting standards.

                        eee was furnished with interim financial statements by GLT which SBA officials
         in the Phoenix District Office reviewed before authorizing the guaranty of the Loan under nonnal
         SBA procedures. As indicated above, this was not inconsistent with SBA requirements. h
         should also be noted that historical financial statements of the r. i')<: 4-      .:J would not
         havebccn available to eec from Capital Lending Corporation as the Audit Reports asserts,
         because Capital Lending Corporation had no relationship with cee at the time the Application
         was filed and GLT had only been in operation sinee 1995.

                        In such a ease, SBA rather than cee bears the responsibility for the consequences
         of relying upon the erroneous financial statements. If SBA wisbed to require three years worth of
         historical financial statements prior to entering into the Authorization it could ha.ve asked for
         them from either eee or GLT. However, it did not do so. Thus, by submitting the interim
         financial statements it was provided by GLT in conjunction with the Application, cee
         committed no violation of SBA underwriting procedures, regulations. or loan guarantee
         agreement, nor did its actions place SBA at risk on the Loan.




...--.                                                                   ..,..,....                        p.e3
.......
n. 

        . ..... "'''''                            :'.~.",~._.IJ.'.   __ _
                                                                                             Appendix H

          Pepper Hamilton
                    ....
                          LLP..
                            -.,.II~




        (~.",                         .J
         Page 3
         February 1. 2000



                                           The Audit Report Comains Unsubstantiated Dicta

                        The Audit Report also cites some extraneous contentions regarding a difference of
        opinion between the SEA counsel in the Phoenix District Office and other relevant SBA
        personnel over whether an SEA guaranty of the Loan was appropriate because of what the
        auditor characterizes as "inappropriate lender actions". However. as indicated above
        notwithstancling these vague references which mayor may not accurately portray the counsel's
        views. (we have not been provided the text of these alleged comments) the guarantee was
        properly authorized by SBA personnel under standard SEA approval processes which require
        two of three affirmative votes on such actions (See SOP 50-lOA). Thus, these misplaced                     i
        references to differences of opinion in the Phoenix District Office arc merely meaningless dicta, 

        and may not serve as the basis for a denial of liability.                                                  I

                                                                                                                   I
                    CCC's Actions Resulted In No Loss to SBA and Do Not Iustifv Denial Of Liability
                                                                                                                   i
                       Finally, the Audit Report alleges that because of the improper actions of cce
       SEA lost $834,081 (the amount of the guarantee plus accrued interest). This is a gross
       mischaracterization of the amount of loss, if any, which SBA may jncur on the Loan, and a
       misassignment of blame {or any such loss. Firs!, at this point it is unclear what liquidation value
       may be realized on the collateral for the Loan. Normal liquidation of the Loan which is ongoing
                                                                                                                   I
       may result in a recovery of some or all of the $834,081. Secondly, as indicated above, CCC
       bears no blame for the {ailure of OLT.

                     In addition, ece committed no violation of SEA requirements in underwriting
       th~ Loan. It was misled by the submission of false financial statements by OLT's principals but
      it did not mislead SBA in anyway. SBA authorized the guaranty of the Loan after its own
      review of the Application under normal SEA procedures, and must alone bear the ultimate risk of
      any loss.

                      Denial of liability is an extremely significant action. reserved only to the
      Administrator of SEA. 13 C.P.R. §120.524 provides the Sllllx bases upon which SBA may
      undertake a denial of liability. AJ. indicated above, the bases cited in the Audit Report are not
      substantiated in this case. There is no indication that CCC failed to comply with SBA loan




                                                                                                          P.04 

FEB. 3.    ~LUU     ll: ~jAlI\                                                                      Appendix B

     Pepper Hamilton LLP_....
    (      ()(. b                -3
    Page 4
    Pebruary 1, 2000

     origination requirements in the underwriting of the Loan. To the contrary, SBA authorized the
     guaranty of the Loan after its own review of CCC's underwriting. Therefore, there is no legal
     ground, upon which SBA may deny liability on the guaranty of the Loan.

                           Please address all further comments on this matter to the undersigned.

                                                        Sincerely,



                                                       [
                                       ]
     cc:
                                      ]
     DC: tl)9611 vi (2Z1190II.WPDI




                                                                             -:::..,   ..   '                    P.0S
                                                                                               Appendix C


                                    AUDIT REPORT DISTRIBUTION


       Recipient
                                                                                      Number of Copies
       District Director
        Arizona District Office ------------------------------------------------------___________________2

      Associate Deputy Administrator for
       Capital Access ------------------------------------------------------_____________________________ 1

      General Counsel --------------------------------------------------~-------- _______________________ 2

      Associate Administrator for
       Financial Assistance ---------------------------------------------------_________________________ 1

      Associate Administrator for
       Field Operations----------_______________________________________________________________________ 1

      Office of the Chief Financial Officer
       Attn: Jeffrey Brown -------------------------------------------------___________________________ 1

      General Accounting Office--------------___________________________________---------------------1




_.,                                                                                                           I
